Case No. 20-483
In The Supreme Court of the United States

Case No.18-15124 /18-15245

ARTEM KOSHKALDA,
Petitioner
v.
SEIKO EPSON CORPORATION, ET. Al.,
Respondent

On Petition For A Writ Of Certiorari To The United
States Court Of Appeals For The Ninth Circuit

PETITIONERS' REPLY BRIEF ISO
PETITION FOR A WRIT OF CERTIORARI

Artem Koshkalda
3408 Chitgar Pl, San Jose,
CA, 95117
Appearing Pro Se
November 16, 2020

1

Minor discrepancies in Opening Brief.
Opening Brief ("OB") contains the following
three (3) minor discrepancies:
identified
Report
and
(i). Koshkalda
Recommendation Order [ECF 112] as RORA.
[OB, 5]. But on page 6 of OB Koshkalda states it
as RARO. Please note that RARO and RORA are
meant to be the same;
"unopposed ECF 84" [OB, 6] means that ECF 84
order resulted from non-opposition;
similarly "unopposed ECF 88" [OB, 6] means that
ECF 88 order resulted from non-opposition.
Brief summary of what was (important)
alleged in Opening Brief
In Opening Brief Petitioner asserted the
following facts:
Period prior to April 17, 2017. In September
2016 NV Action started from an ex parte seizure
during which Epson seized everything from the
Koshkalda's location. [OB, 3]. In October 2016 Epson
conducted a "second" seizure. [OB, 3]. In March 2017,
Epson deposed Koshkalda. [OB. 3]. Epson raised no
issues with Koshkalda's compliance.
During April 17, 2017, hearing NV Court
marked no problems with the Koshkalda's compliance
with discovery obligations, but warned Koshkalda
that if other (non-compliant) defendants would not
start to comply with "their" discovery obligations —
Koshkalda would suffer. [OB, 4-5]. NV Court did
exactly that, which became a central piece of the issue
brought for this Court's review.

2

Period after April 17, 2017. Right after (and
3.
not before) NV Court (erroneously) stated that NV
Court would punish obedient Koshkalda for
disobedience of other parties, Epson filed "first"
motion to compel and included Koshkalda. [ECF 80].
It was unopposed. NV entered an order granting the
motion. [ECF 84]. Koshkalda complied with all
requirements of the order.
Then, Epson filed "second" motion to compel.
[ECF 85]. It was against "some" defendants and
Koshkalda and ART LLC (owned by Koshkalda) was
not among them. NV Court entered an order granting
it, with a notice that it was the last warning before
NV Court would enter case terminating sanctions
order. [ECF 88]. Koshkalda was "not" subject to ECF
88.

Respondents to ECF 88 order did "not" comply
with the order, and Epson filed the "third" motion to
compel, this time alleging violation of ECF 88. [ECF
91]. Koshkalda opposed. [ECF 94]. NV Court issued
an order granting "third" motion to compel. [RARO,
ECF 112]. In RARO NV Court "erroneously"
concluded that "all" defendants violated ECF 88 order
on "second" motion to compel which contained a final
warning notice, while completely disregarding the
fact that ECF 88 was limited only to "some"
defendants. and Koshkalda was not among them.
Bottom line is that Epson seized all documents
from the Koshkalda's location on an ex parte basis,
then made another seizure, then deposed Koshkalda
raising no issues whatsoever against Koshkalda.
Epson started to include Koshkalda with other nonobedient defendants ONLY AFTER NV Court
erroneously stated (verbatim):

3
THE COURT ... But this — so what's going to happen
is — and I do have sympathy for particularly Mr.
Koshkalda who I think is doing the very best he can...
I know you're trying to get these other people
[Kravchuk and Bielovi to get in line and to do what
they need to do, but if this continues, you are setting
yourself up for a motion for a judgment based upon
your inability to proceed in this court, and I don't
know what that judgment would end up looking like,
sounds to me like it would be a significant amount of
money which should concern you [Koshkalda and
Maliuk] and should concern the other two
codefendants [Kravchuk and Bielovj. So everybody
comes back here. Mr. Koshkalda, you understand that,
sir?" But the defendants [Kravchuk and BielovJ need
to understand if they — not you two [Koshkalda and
Maliuk] but if the other defendants continue to be in
Ukraine or continue to ignore this case, there are going
to be problems with that, and they need to get —
understand that, and it's going to be a motion by the
— by this very big company that could be potentially
very devastating to all of you, and that would be bad.

Reply in support of Opening-Brief.
In Opposition-Brief Epson:
asserts that Koshkalda's count of sanctioning
motions filed by Epson against Koshkalda prior to
RARO is not correct [Opp. 5];
disagrees with Koshkalda's interpretation of what
Magistrate Judge stated during April 17, 2017,
hearing;
Continues to make (irrelevant) general allegations
about "all" defendants without separating facts
relevant only to Koshkalda and ART LLC;
alleged the importance of the fact that Ninth

4
Circuit in order to affirm NV Court's orders
searched for "alternative grounds."
makes an argument that this Court should not
pick this case because the situation will not be
repeated in the future.
makes an argument based on a disputed fact in
another Writ of Certiorari filed before this Court
concurrently with this Reply-Brief.
In this Reply-Brief Koshkalda disagrees with
Epson's assertions and alleges that this case is
appropriate for this Court's review. Koshkalda will
address each point in turn.
Epson claims that Koshkalda's count of
Epson's sanctioning motions against
Koshkalda prior to RARO is incorrect.
In Opening-Brief Koshkalda claimed that there
were a total of three Epson's motions to compel and
for sanctions "prior" to RARO. [OB, 6].
In Opposition-Brief Epson disputed the
Koshkalda's count of sanctioning motions against
Koshkalda and ART LLC prior to RARO, Epson
stated (verbatim):
A.

Petitioner is also incorrect as to the number of
sanctions motions filed and regarding his compliance
with court orders ...
Opp. 5
In support, Epson does not identify any other Epson's
sanctions motions that Koshkalda missed.
Instead, Epson provided irrelevant facts which
do not support the Epson's assertion that Koshkalda's
count of sanctions motions is incorrect. Epson

5
identified that the first sanction motion was during
the seventh appearance before the Magistrate Judge.
[Opp. 5]. Epson conflates appearances for "case
management hearings" with appearances on motions
to compel and for sanctions.
In addition, it does not matter (nor is it
relevant) that the first motion to compel and for
sanctions occurred during the seventh appearance,
because on the sixth appearance the Magistrate
Judge specifically praised the • Koshkalda's
compliance and erroneously stated that the Court
would punish Koshkalda if other non-obedient parties
would not start their compliance. [OB, 4-5].
Thus, Epson's assertion that Koshkalda's count
was incorrect is not true and was not supported by
Epson.
B.

Epson's interpretation of the NV Court's
statements during the April 17, 2017,
hearing is also without merit.
In Opposition-Brief Epson stated:

Magistrate Judge's warning on April 17, 2017 did not
apply to him is contradicted by not only the record but
Petitioner's concessions. Pet. 4 ("if this continues, you
are setting yourself up for a motion for a judgment
based upon your inability to proceed in this court...".).
Petitioner appeared at the subject hearing empty
handed despite being ordered to personally appear
with "documents responsive to plaintiffs written
discovery requests."
Opp. 4

6
Epson's interpretation is wrong. Epson did
cherry-picking of what the Magistrate Judge stated.
The full statement is as follows (verbatim):
THE COURT ... But this — so what's going to happen
is — and I do have sympathy for particularly Mr.
Koshkalda who I think is doing the very best he can...
I know you're trying to get these other people
[Kravchuk and Bielov] to get in line and to do what
they need to do, but if this continues, you are setting
yourself up for a motion for a judgment based upon
your inability to proceed in this court, and I don't
know what that judgment would end up looking like,
sounds to me like it would be a significant amount of
money which should concern you [Koshkalda and
Maliuk] and should concern the other two
codefendants [Kravchuk and Bielov]. So everybody
comes back here. Mr. Koshkalda, you understand that,
sir?" But the defendants [Kravchuk and Bielov] need
to understand if they — not you two [Koshkalda and
Maliuk] but if the other defendants continue to be in
Ukraine or continue to ignore this case, there are going
to be problems with that, and they need to get —
understand that, and it's going to be a motion by the
— by this very big company that could be potentially
very devastating to all of you, and that would be bad.
(emphasis added)
OB, 4-5
By stating "if this continues" the Magistrate Judge
was referring to non-appearance and non-compliance
by other defendants. And Magistrate Judge made it
very clear. The full sentence states:

7
I know you're trying to get these other people
[Kravchuk and Bielov] to get in line and to do what
they need to do, but if this continues, you are setting
yourself up for a motion for a judgment based upon
your inability to proceed in this court, and I don't
know what that judgment would end up looking like,
sounds to me like it would be a significant amount of
money which should concern you [Koshkalda and
Maliuk] and should concern the other two
codefendants [Kravchuk and Bielovi. So everybody
comes back here.
OB, 4-5.
There was not a word about failure to produce
documents, nor does it fit into the context where
Magistrate Judge was praising the Koshkalda's
compliance.
Other defendants, unlike Koshkalda, refused
to cooperate and to obey the NV Court orders.
Thus, Epson's assertion is without merit.
C.

While unable to provide specific facts as
to Koshkalda and ART LLC, Epson
continues its approach to commingle
facts by making general statements about
"all" defendants.
In Opposition Epson stated (verbatim):

Respondents were appropriately granted seizure relief
and seized over 15,000 counterfeit ink cartridges from
multiple locations, including those related to
Petitioner.
Opp. 2

8
Epson conceals the fact that from Koshkalda's and
ART LLC's locations Epson did not seize a single
counterfeit ink cartridge.
Furthermore, the dispute as to what was seized
and what was returned by Epson is subject to another
petition for Writ of Certiorari before this Court —
appeal from the case No. 19-56187 before Ninth
Circuit, and Case No. 2:18-cv-05087-FMO-AGR
before the United States District Court Central
District of California, Opening Brief for which is filed
concurrently with this Reply-Brief.' That petition for
Writ of Certiorari is regarding Epson's wrongful
seizure in NV Court which was (wrongfully)
dismissed by Epson's lawyers with prejudice after the
Bankruptcy Court (erroneously) allowed nondisinterested Epson's lawyers to represent
Koshkalda's Estate in cases of the Koshkalda's Estate
against Epson.
Next, Epson stated (verbatim):
Discovery was problematic and resulted in no less
than eleven hearings before the Magistrate Judge
regarding persistent and intentional discovery abuses
and violations of court orders including those for
which Petitioner was solely responsible. The
Magistrate Judge said it best when she stated, with
respect to Petitioner and others, that she had 'never
encountered thus] level of obstructionism and failure
to respond to the most basic discovery requests' in her
I Pursuant to Supreme Court Rule 27(3)
Koshkalda requests this Court to review both cases
together, because they are exactly on the same
subject.

18 years as a judge." App. 34. During the majority of
these hearings, Petitioner was represented by counsel.
Opp. 3
Epson's position is without merit. First. Epson
conflates "case management conferences" with
hearings on motions to compel.
Second, Epson again is referring to hearings
where Magistrate Judge was giving explanations,
directions and warnings to other defendants, not to
Koshkalda or ART LLC.
Third as stated above Epson raised no issues
whatsoever with Koshkalda providing premises for
inspections and with Koshkalda's deposition
testimony, while against all other defendants Epson
kept raising complaints to the NV Court. It was only
after (and not before) April 17, 2017, hearing when
Epson stated to include Koshkalda with other
disobedient defendants.
Fourth as to the NV Court's statement that NV
Court never experience such behavior for 18 years,
that is again not related to the Koshkalda's
performance, but rather it was related to the fact that
others were not present during one of the hearings.
By no means it should be an excuse to sanction
obedient Koshkalda for violative actions of nonobedient parties. [RARO, ECF 112].
D. Epson's argument that Ninth Circuit
affirmed NV Court's orders on
"alternative grounds" is against Epson
and is in favor of this Court granting the
Koshkalda's petition.
In Opposition-Brief Epson stated (verbatim):

10

The Ninth Circuit's Decision was Correct on
Alternative Grounds Further Supporting Denial of
This Petition.
Opp. 9
Think for a second about the reason Ninth Court was
looking for "alternative grounds" to affirm the NV
Court's orders. The answer is simple — NV Court
orders were clearly erroneous and could not be
affirmed without "something else." More importantly,
Koshkalda did not argue "everything" on appeal, and
limited his briefs to the specific issues with the NV
Court's orders which were clearly erroneous. Ninth
Circuit on its own initiative reviewed the record
without Koshkalda having a due process right to
dispute, let alone to argument, "something else"
which led to the Ninth Circuit's erroneous findings
that Koshkalda missed hearings and did not comply
with NV Court's orders, all of which occurred after
(not before) RARO, thus should not have justified
erroneous RARO issued by NV Court. Erroneous
rulings cannot be justified with future actions not
occurred at the moment NV Court entered RARO.

E.

Epson's argument that this Court should
not pick this case because the situation
will not be repeated in the future is the
reason this Court should choose to review
it.
In Opposition-Brief Epson stated (verbatim):

The only thing unusual about this case is the lengths
to which Petitioner is willing to go to avoid being held
accountable, a fact pattern unlikely to be repeated and

11
an exceptionally poor vehicle to review long settled
law.
Opp. 8
The Epson's position is fundamentally wrong. Case
terminating sanctions is a very drastic measure
depriving a party from a case review on merits, which
should be used (but was not) sparingly with caution.
The obedient party should not be punished for
violations of others without a clear record. Here,
Epson got a $12,000,000.00 default judgment against
Koshkalda just because Koshkalda's answer was
stricken as a result of case terminating sanctions.
Furthermore, Epson does not explain the
reasons for its assertion that "a fact pattern unlikely
to be repeated." Koshkalda agrees that most people
rather accept the injustice, than keep fighting for the
truth till the highest Court's review, or, as it is in this
case, fighting for just a "tiny chance" for the highest
Court's review.
Here, Koshkalda is fighting for a review of the
case on merits. Koshkalda needs not to be the best
litigant to deserve a decision on merits. Koshkalda
has to be reasonably complying with his discovery
obligations. As stated above numerous times the
moment Epson started to include Koshkalda with
other disobedient defendants was after (not before)
NV Court praised Koshkalda but warned Koshkalda
that if others would not start their compliance, then
Koshkalda would not get a decision on merits.
Thus, the issue here deserves this Court's
review — the Koshkalda's right for a decision on
merits.

12
F.

Epson makes an argument based on a
disputed fact in another Writ of
Certiorari filed before this Court
concurrently with this Reply-Brief.

In Opposition Epson states that it seized and
returned everything from the Koshkalda's and ART
LLC's locations. [Opp. 2].
That argument is disputed by a separate
petition for Writ of Certiorari, Opening Brief for
which is filed concurrently with this Reply-Brief.
Brief summary of the whole picture.
After NV Court entered clearly erroneous RARO and
before NV Court entered a default judgment,
Koshkalda filed for Chapter 11 reorganization
bankruptcy protection. Case No. 18bk30016-HLB
pending before the United States Bankruptcy Court
Norther District of California.
Upon Epson's request the Case was converted
to Chapter 7 liquidation. Trustee got assigned and
trustee got in a possession of all Koshkalda's and ART
LLC's assets. Bankruptcy Court (erroneously)
allowed Epson's lawyers to be hired as counsel for
Koshkalda's Estate, which acted in favor of Epson
against the interest of the Koshkalda's Estate,
including filing a dismissal with prejudice of the
Koshkalda's Estate's wrongful seizure action against
Epson without authorization. Koshkalda requested
abandonment after dismissal with prejudice.
Bankruptcy Court granted and abandoned it.
Koshkalda requested the dismissal with prejudice to
be set aside, but the United States District Court for
the Central District of California denied the request
and stated that it is the Trustee's responsibility.
Bottom line is that after "voluntarily" filing for
a reorganization, the case was "involuntarily"

13
converted to liquidation and Epson's lawyers was
allowed to represent Koshkalda's claims against
Epson. But that is subject for another petition for
Writ of Certiorari with a "tiny chance" to be chosen
for review.
Pursuant to Supreme Court Rule 27(3)
Koshkalda requests this Court to review both
petitions for writ of certiorari together for a full
picture of injustice that Koshkalda has experienced
while fighting against Epson.
CONCLUSION.
Based on the arguments presented in OpeningBrief and in Reply-Brief Koshkalda requests to grant
this petition.
DATED: November 16, 2020.

By: 442fVw. &,411.4141a.
Artem Koshkalda, Petitioner

